GR-80-98-010
U.S. DEPARTMENT OF JUSTICE

 
Audit Report
 
Office of Community Oriented Policing Services
Standing Rock Sioux Tribe
Fort Yates, North Dakota
 GR-80-98-010
January 30, 1998
 

EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of three
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Standing Rock Sioux Tribe, Fort Yates, North Dakota. The
Standing Rock Sioux Tribe received an award of $61,523 to hire or rehire 1 additional
sworn police officer under the Funding Accelerated for Smaller Towns (FAST) program, and
$898,272 to hire or rehire 16 additional police officers under the Universal Hiring
Program (UHP). In addition, a grant of $25,646 was awarded to redeploy 1.2 officer
full-time equivalents (FTEs) under the Making Officer Redeployment Effective (MORE)
program. The purpose of the additional officers is to enhance community policing efforts.
Due to the lack of a community policing program, we are questioning $52,122, which was
the amount of funds received by the Standing Rock Sioux Tribe at the time of our audit.
Also, the remaining $933,319 in grant funds should be withheld as funds to better use,
until the Standing Rock Sioux Tribe establishes a community policing program.
We found the following weaknesses with regard to meeting the grant conditions: 


- Community policing had not been implemented. In addition, a strategic plan for
    implementing community policing had not been prepared as outlined in the COPS application.
- A formal plan to retain COPS officers at the expiration of the grants was not
    prepared. The Standing Rock Sioux Tribe was considering maintaining the officers under
    Public Law 93-638, Indian Self-Determination Act.
- Financial Status Reports for the first year of the grant, which included $10,565 in
    unallowable indirect costs, were not always prepared. 
- The Department Annual Report and the Officer Progress Report showed the incorrect
    number of COPS officers hired. Also, the Department Initial Report was not submitted
    timely.
#####